 

 

IN THE SUPREME COURT OF THE UNITED STATES

JUAN TINOCO-GARCIA,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Motion for Leave to Proceed Jn Forma Pauperis

Pursuant to 18 U.S.C. ยง 3006A and Supreme Court Rule 39, the Petitioner,
Juan Tinoco-Garcia, asks for leave to file a Petition for Writ of Certiorari to the U.S.
Court of Appeals for the Ninth Circuit without pre-payment of fees or costs and to
proceed in forma pauperis. The Petitioner was represented by counsel appointed
pursuant to 18 U.S.C. ยง 3006A in the district court and on appeal to the Court of
Appeals for the Ninth Circuit.

lly submitted,

   
   

December 23, 2020
lederal Defenders of San Diego, Inc.
25 Broadway, Suite 900

San Diego, California 92101
Telephone: (619) 234-8467

Attorneys for Petitioner
